GR-50-98-003
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANT TO THE MACKS CREEK, MISSOURI POLICE DEPARTMENT
Award Number 95CFWX2125
Audit Report Number GR-50-98-003
January 8, 1998
 

AUDIT RESULTS
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Macks Creek, Missouri. Macks Creek received a
grant of $43,785 to hire a third sworn police officer under the FAST program, and $43,753
to hire a fourth officer under the Universal Hiring program. The purpose of the additional
officers was to enhance community policing efforts.
The City of Macks Creek ("the City"), population 272, currently plans to
apply for chapter nine bankruptcy protection. On February 28, 1997, a significant portion
of the City government resigned after a public hearing of the results of a petition audit
performed by the State Auditor of Missouri. The State Auditor's noted numerous problems
including: questioning of $8,914 in COPS grant reimbursements, a debt to the state of
$46,300, the City's poor financial condition and a poor internal control structure. The
City no longer employs a police department. The City was widely known for its reputation
as a speed trap. The City government was financed by traffic fines and related court fees.
Thus, the City has little revenue earning potential.
Our audit determined that community policing was enhanced in the City of Macks Creek
when the City employed three full time police officers. 
However, Macks Creek violated some grant conditions:

- The City employed three full time officer's from June 26, 1995 through April 30,
  1996. During this period unallowable grant charges of $1,145 were paid to the City.
- The $14,681 in reimbursements requested and paid to the City during the period of May
  1, 1996 to January 31, 1997, were improper and not in accordance with the terms of the
  grant application. 
- The City has not submitted one Financial Status Report, the Officer Progress Report
  nor the Annual Department Report. 

The total questioned reimbursements equal $15,826 of the $25,788 (61%) paid to the
City. The remaining $17,997 of the FAST grant funds and the entire $43,753 (totalling
$61,750) from the Universal Hiring grant should be unobligated to the City, and put to
better use in another location. 
#####